<html>
<title> - MARKUP OF H.RES. 292, H. RES. 181, H.R. 2608, H. CON. RES. 187, H.J. RES. 65, AND H. RES. 297</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]


 
  MARKUP OF H.RES. 292, H. RES. 181, H.R. 2608, H. CON. RES. 187, H.J. 
                        RES. 65, AND H. RES. 297

=======================================================================

                                 MARKUP

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                      THURSDAY, SEPTEMBER 23, 1999

                               __________

                           Serial No. 106-93

                               __________

    Printed for the use of the Committee on International Relations




 Available via the World Wide Web: http://www.house.gov/international 
                               relations



                                 ______
                                   
                    U.S.GOVERNMENT PRINTING OFFICE
63-967CC                   WASHINGTON : 2000






                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
     Hillel Weinberg, Senior Professional Staff Member and Counsel
                     Jill N. Quinn, Staff Associate




                            C O N T E N T S

                              ----------                              
                                                                   Page
Markup of H. Res. 292, a resolution expressing the sense of the 
  House of Representatives regarding the referendum in East 
  Timor, calling on the Government of Indonesia to assist in the 
  termination of the current civil unrest and violence in East 
  Timor, and supporting a United Nations Security Council-
  endorsed multinational force for East Timor....................     1
Markup of H. Res. 181, a resolution condemning the kidnapping and 
  murder by the Revolutionary Armed Forces of Columbia (FARC) of 
  3 United States citizens, Ingrid Washinawatok, Terence Freitas, 
  and Lahe'ena'e Gay.............................................    14
Markup of H.R. 2608, a bill to amend the Foreign Assistance Act 
  of 1961 to clarify the definition of ``major drug-transit 
  country'' under the international narcotics control program....    17
Markup of H. Con. Res. 187, a concurrent resolution expressing 
  the sense of the Congress regarding the European Council noise 
  rule affecting hushkitted and reengined aircraft...............    28
Markup of H.J. Res. 65, a joint resolution commending the World 
  War II veterans who fought in the Battle of the Bulge, and for 
  other purposes.................................................    31
Markup of H.J. Res. 297, a resolution expressing sympathy for the 
  victims of the devastating earthquake that struck Taiwan on 
  September 21, 1999.............................................    34

                                APPENDIX

Prepared statements:

Hon. Cynthia McKinney, a Representative in Congress from Georgia, 
  concerning H. Res. 292.........................................    51

Bills and amendments:

H. Res. 292......................................................    38
Amendment in the nature of a substitute to H. Res. 292, offered 
  by Rep. Bereuter...............................................    44
Amendment to the Bereuter amendment in the nature of a substitute 
  to H. Res. 292, offered by Rep. Brady..........................    54
H. Res. 181......................................................    55
H.R. 2608........................................................    60
H. Con. Res. 187.................................................    62
H.J. Res. 65.....................................................    65
Amendment in the nature of a substitute to H.J. Res. 65, offered 
  by Rep. Smith..................................................    69
H. Res. 297......................................................    72
Amendment in the nature of a substitute to H. Res. 297, offered 
  by Mr. Bereuter................................................    74

Additional material submitted for the record:

Letter written by Julie Freitas, mother of Terence Freitas, which 
  appeared in the Washington Post on May 22, 1999, submitted by 
  Rep. Lee.......................................................    58





                          MARKUP OF H.RES. 292

                              ----------                              


                      Thursday, September 23, 1999

                  House of Representatives,
              Committee on International Relations,
                                           Washington, D.C.
    The Committee met, pursuant to notice, at 1:40 p.m., in 
room 2172, Rayburn House Office Building, Hon. Benjamin A. 
Gilman (Chairman of the Committee) presiding.
    Chairman Gilman. The Committee on International Relations 
meets today in open session, pursuant to notice, to mark up 
several items of legislation.
    We will now consider H. Res. 292, relating to East Timor. 
The Chair lays the resolution before the Committee.
    The clerk will report the title of the resolution.
    Ms. Rush. House Resolution 292, a resolution expressing the 
sense of the House of Representatives regarding the referendum 
in East Timor, calling on the Government of Indonesia to assist 
in the termination of the current civil unrest and violence in 
East Timor, and supporting a United Nations Security Council-
endorsed multinational force for East Timor.
    [The information referred to appears in the appendix.]
    Chairman Gilman. This resolution was referred to the 
Subcommittee on Asia and the Pacific and reported without 
amendment.
    Without objection the clerk will read the preamble and 
operative language of the resolution, in that order, for 
amendment. The clerk will read.
    Ms. Rush. Whereas on May 5th, 1999, the governments of 
Portugal and Indonesia and the United Nations----
    Chairman Gilman. Without objection, the resolution is 
considered as having been read. It is open to amendment at any 
point.
    I now recognize the gentleman from Nebraska, Mr. Bereuter, 
the distinguished Chairman of the Subcommittee on Asia and the 
Pacific, for 5 minutes to introduce the resolution. I 
understand he has an amendment in the nature of a substitute 
which he may offer now or at the end of his remarks.
    Mr. Bereuter.
    Mr. Bereuter. Mr. Chairman, I do have an amendment in the 
nature of a substitute at the desk. I would offer it at this 
point. It is on the Members' desks.
    Chairman Gilman. The clerk will read the amendment.
    Ms. Rush. Amendment by Mr. Bereuter. Amend the preamble to 
read as follows: Whereas on May 5th, 1999, the Governments of--
--
    [The information referred to appears in the appendix.]
    Chairman Gilman. Without objection, the amendment is 
considered as having been read.
    The gentleman is recognized on his amendment.
    Mr. Bereuter. Thank you, Mr. Chairman. My colleagues, as an 
author of H. Res. 292, I am offering this amendment in the 
nature of a substitute in order to update certain parts of the 
original resolution, and to better reflect recent developments 
on East Timor and Indonesia.
    This legislation was marked up by the Asia and the Pacific 
Subcommittee last week, and was expected to be taken up by the 
Full Committee on Wednesday, September 15th, but as you know, a 
hurricane changed our schedule here. A number of things have 
happened in the meantime, and we have prepared this amendment 
in the nature of a substitute to reflect that fact.
    The most notable of those happenings has been Indonesia's 
reluctant acceptance of a multinational force for East Timor. 
On September 20th the initial deployment of this multinational 
force began, led by a very large contingent of Australians.
    The Subcommittee on Asia and the Pacific, jointly with our 
Senate Foreign Relations counterpart, held a detailed hearing 
on East Timor, and subsequently has held update briefings on 
the situation; therefore, I believe I do not need to provide a 
lengthy background comment regarding the tragedy in East Timor 
and our serious concerns about Indonesia's failure to fulfill 
its international obligation.
    The amended resolution does the following: It supports the 
referendum that occurred in East Timor and our acceptance of 
the results. It expresses concern about Indonesia's failure to 
fulfill its international obligations to provide safety and 
security to the people of East Timor; and it condemns the 
militias and the elements of the Indonesian military that have 
engaged in violence.
    It also urges the international community to investigate 
the human rights abuses that have occurred, and calls on 
Indonesia to hold accountable those responsible for such acts. 
It urges the unrestricted access to, and safe return of 
refugees and displaced persons in West Timor and elsewhere. It 
supports a consideration of additional economic and other 
sanctions against Indonesia, should Indonesia not cooperate 
with or hinder the multinational force, UNAMET, in its efforts 
to ensure the safe return of refugees or the transition to 
independence for East Timor. It supports U.S. logistical and 
other technical support for the multinational force for East 
Timor, and it strongly commends Australia for its willingness 
to lead this force, and for rapidly deploying its initial 
contingent forces.
    This is the largest and most important deployment of 
Australian forces abroad since World War II, and the 
Australians deserve our praise and support for taking on this 
responsibility.
    The resolution also recognizes that an effective U.S. 
foreign policy for the region requires an effective near-term 
response to the ongoing humanitarian crisis in, and progress 
toward independence for East Timor. It also requires a long-
term strategy for supporting stability, security, and democracy 
in Indonesia.
    I think this provision is very important because when CNN 
and many of us focus on the crisis affecting the 700,000 people 
on East Timor, we must not lose sight of the important 
relationship we need to maintain with 209 million remaining 
Indonesians. It is in our own short-term and long-term national 
interest to help Indonesia make the democratic and economic 
reforms it so desperately needs.
    I want to thank Chairman Gilman for moving this 
legislation, for his cosponsorship, for the help and the 
assistance in cosponsorship of the distinguished Ranking 
Democrat of the Asia and the Pacific Subcommittee, Mr. Lantos, 
the Ranking Democrat of the Full Committee, Mr. Gejdenson, and 
other Members of the Committee who are cosponsors, including 
Messrs. Hastings, Smith, Faleomavaega, Gillmor, Ackerman, 
Berman, Rohrabacher, Crowley, Radanovich, and Delahunt.
    I urge the adoption of the amendment in the nature of a 
substitute, Mr. Chairman.
    I yield back the balance of my time.
    Chairman Gilman. Thank you, Mr. Bereuter.
    I want to thank the distinguished Chairman of the Asia and 
the Pacific Subcommittee, Mr. Bereuter, for bringing this very 
timely measure before us today. It has broad bipartisan 
support. I am proud to be a cosponsor. I am still troubled by 
the situation in East Timor, as many of our colleagues are. 
Although the first elements of the multinational force, led by 
our friends the Australians and supported by American troops, 
have landed on the island, there are still many important 
challenges ahead. The extent of these challenges is only now 
becoming known. First, the Government of Indonesia must abide 
by its commitment to respect the results of the August 30th 
referendum and the rights of East Timorese to raise a peaceful 
transition to independence.
    President Habibie comments, though tragically late, that 
Indonesia must honor and accept that choice, an important step. 
I hope his words will be fulfilled by his deeds. Accordingly, 
the Indonesian parliament must ratify the popular decision of 
the people of East Timor at an early date. Second, the 
Indonesian military, which participated in the violence against 
innocent civilians, aided and abetted by the militia, should 
fully withdraw from East Timor. That will allow refugees and 
displaced persons to return home from West Timor and elsewhere 
confident of their safety. It will also reduce the likelihood 
of a clash with a multinational force.
    Third, I urge the international community to investigate 
the human rights abuses and atrocities which occurred in the 
aftermath of the elections, and call upon the Government of 
Indonesia to hold fully accountable those responsible for such 
reprehensible acts.
    Finally, in light of these devastating events, the 
Administration is going to have to reevaluate its military 
relationship with the Indonesian arm forces. The Pentagon 
should conduct a full scale review of its military-to-military 
relationship with Djakarta, including the effectiveness of the 
IMET Program, joint training exercises, and armed sales. The 
Pentagon should not reinstitute any aspect of the military 
relationship without full consultation with the Congress.
    Once again, I thank Mr. Bereuter, and I look forward to 
bringing this resolution to the Floor next week for early 
consideration by the entire House.
    Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I commend you 
and the International Relations Committee Ranking Member, Mr. 
Gejdenson, for bringing this measure regarding the recent 
developments in East Timor for the markup of the Committee. I 
would further like to deeply commend the Chairman and the 
Ranking Member of the Asia and the Pacific Subcommittee, a good 
friend from Nebraska, Mr. Bereuter, and Mr. Lantos, for 
cosponsoring this resolution and their consideration at this 
time.
    I would like to say, Mr. Chairman, that I am honored to be 
an original cosponsor of the resolution. Mr. Chairman, with 
respect to the events in the past weeks, the Indonesian 
Government should be condemned in the strongest terms for 
allowing untold atrocities to be committed against the 
innocent, the unarmed civilians of East Timor.
    I commend President Clinton for terminating all assistance 
to, and ties with the Indonesian military. The United Nations 
estimates that up to 300,000 East Timorese, over one-third of 
the population of East Timor, have been displaced, and it 
remains to be seen how many hundreds if not thousands have been 
killed in the mass blood pillage and carnage. A call for an 
international war crimes tribunal to punish those responsible 
for the atrocities should be heeded.
    Mr. Chairman, I strongly support the intervention of the 
United Nations-endorsed multinational force in East Timor. I am 
heartened that with their arrival in Dili early this week, a 
little less than half of the 7,500 troops' peacekeeping force 
is on the ground. They have already had a significant effect of 
stabilizing the situation.
    I trust the isolated outbreaks and gunfire and recent 
killings, such as that yesterday of the Dutch journalist, will 
be stopped by the Australian-led multinational force. While I 
believe America's role in the peacekeeping mission should have 
been greater, certainly the contribution of the United States 
airlift and logistical support has been invaluable.
    Mr. Chairman, with Indonesia being the fourth largest 
nation, and the largest Muslim country in the world, which 
should strike major ceilings of communications in trade, 
certainly we have a substantial national interest in preserving 
stability, not only in Indonesia but in Southeast Asia as well, 
and to prevent a U.N. initiative from turning into a 
catastrophic humanitarian disaster.
    Mr. Chairman, the resolution has a great meaning to the 
people of East Timor. Especially at the outset, some 25 years 
ago, the Indonesian military, under the leadership of Dictator 
Suharto, unilaterally sent forces and massacred, tortured, 
killed, whatever you call it. As a result, over 200,000 East 
Timorese were dead by that illegal and unlawful takeover, if I 
might add.
    Mr. Chairman, this resolution is especially meaningful to 
the people of East Timor because finally, after 25 years of 
pleading with the international community, to this country as 
well as to members of the United Nations-I call it neglect, Mr. 
Chairman, on our part, on the part of the international 
community not giving heed to the pleadings of the East Timorese 
people. God knows how many more thousands of East Timorese have 
been killed by the hands of the Indonesian military.
    Mr. Chairman, I support the resolution, the substance, and 
I personally feel that it falls far short of what we should 
have been doing in the past 25 years. I might add, Mr. 
Chairman, let us wait for the next chapter to unfold--and I am 
not going to get into it, I just want to mention one word, West 
Papua New Guinea should be next in line.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Faleomavaega.
    Mr. Lantos.
    Mr. Lantos. Thank you, Mr. Chairman. I want to commend my 
friend and colleague from Nebraska for taking the initiative on 
this. Of course, I strongly support the resolution.
    There are two observations I would like to make, Mr. 
Chairman. First, I want to commend Australia for taking the 
lead, and this obviously ought to be a pattern to be followed 
in other parts of the globe where crises of this kind are 
likely to erupt. The United States needs to play a role 
wherever appropriate, but we certainly do not need to play the 
lead role everywhere. I think the Australians have given a 
superb example to many other countries in accepting their 
regional responsibility.
    At the same time, Mr. Chairman, I want to express profound 
disappointment in the continuing failure of Japan to play any 
role in any such activities. Now, I am no longer impressed by 
the fact that the Japanese constitution of half a century ago 
places some obstacles in the way of Japan's participation. But 
if we can see German troops in the former Yugoslavia--and I am 
very pleased to see German troops in the former Yugoslavia, 
because Germany is a democratic nation that has fully accepted 
its international responsibilities--the time is long overdue 
for Japan to accept its international responsibilities. To see 
a crisis in Asia where troops from a dozen countries 
participate, ranging from the United Kingdom to the 
Philippines, with Japan studiously avoiding the slightest 
degree of participation, I think it is irresponsible, 
appalling, and needs to be called to the attention of our 
colleagues in the Japanese Diet, and of the Japanese 
Government. I intend to do so, and I hope some of my colleagues 
will do so, in a letter to the Prime Minister of Japan on this 
issue.
    The final observation I would like to make, Mr. Chairman, 
is an alert to my colleagues that I am working on legislation 
that will make Indonesia fully financially responsible for all 
of the reconstruction in East Timor. I think this vandalism 
which has unfolded, partly perpetrated by the militia and 
partly perpetrated by the Indonesian military, and certainly 
condoned and acquiesced in by the Indonesian military, will 
have to be rectified by Indonesia.
    It is not the responsibility of the American taxpayer to 
pay for the arson perpetrated by Indonesian militia and 
military troops. The legislation I am working on makes any 
future World Bank assistance and IMF assistance contingent upon 
Indonesia paying directly the full expense of the outrages that 
have been perpetrated beyond the killing of individuals.
    We cannot undo the killing of individuals, but we certainly 
can make the Indonesian Government pay for all of the 
horrendous damage that, in a reckless and irresponsible 
fashion, they perpetrated on this tiny little half-island of 
East Timor. To allow this to go unpunished in a financial 
sense, I think, would be stupid and irresponsible.
    I call on all of my colleagues to join me in this 
legislation, which I understand already has some interest 
expressed in the other body.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Lantos. Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you, Mr. Chairman. Mr. Chairman, I 
would like to associate myself with the remarks of Mr. Lantos. 
Mr. Lantos made several important points, especially Australia 
taking the lead, how the United States should be playing a role 
in different parts of the world, but not necessarily the lead 
role everywhere in the world. I think that we have a measured 
response to that situation now in East Timor, as we are playing 
a supportive role to the Australians. We need to allow the 
Australians, as Mr. Lantos suggested.
    Also, I associate myself with the understanding that Mr. 
Lantos says, who should pay for these horrible atrocities that 
have been committed against the East Timorese people; I agree 
with that as well.
    I would also like to associate myself with the remarks of 
my good friend Mr. Faleomavaega, who suggests that we should do 
more than just note these crimes, but there should be a human 
rights tribunal for those people who committed these crimes 
against humanity.
    Finally, for myself, and not just associating myself with 
the remarks of my friends, but let me just say I was horrified 
and dismayed by what were clearly human rights abuses that were 
sanctioned by the Indonesian military.
    The Indonesian military bought a great deal of good will 
from people around the world when they played a positive role 
in the transition out of the Suharto regime into more 
democratic elections. It was a very volatile moment in 
Indonesian history, and the military there played a very 
positive role. Unfortunately, they squandered much of the good 
will that they achieved throughout the world by permitting this 
mayhem and wanton bloodshed that took place in East Timor, and 
I would hope that they get the message that any repeat of that 
is going to basically--they will be labeling themselves as 
human rights pariahs if this ever happens again--and we are 
watching very closely, and that is what this amendment is all 
about, and I gladly support it.
    I yield back the balance of my time.
    Chairman Gilman. Thank you, Mr. Rohrabacher.
    Mr. Hastings.
    Mr. Hastings. Mr. Chairman, firstly, let me commend you for 
expediting this matter, and certainly the Chairman of the Asia 
and the Pacific Subcommittee is deserving of our commendations. 
I would like to utilize my time to ask my friend and colleague 
Mr. Bereuter just one set of questions regarding language in 
the amendment to the--or at least an amendment in the nature of 
a substitute.
    Mr. Bereuter.
    Mr. Bereuter. Yes, go ahead.
    Mr. Hastings. At page 6, line 17, while I am pleased and 
happy to be an original cosponsor of the base bill, seeing the 
amendment in the nature of a substitute for the first time 
causes me to at least raise a question regarding that 
particular area.
    I agree that we should strongly commend Australia for what 
they are doing in leading the multinational force, but is it 
unwarranted for us to identify the 12 nations presently in the 
second portion of the paragraph that I am referring to? The 
language is that we welcome the participation of other nations. 
I agree with that, but could it not be that we could say that 
we commend the participation of other nations, and I refer 
specifically to other people, New Zealand and the Philippines, 
for example, who came immediately to involve themselves in a 
similar manner, as well as the United States?
    Would it be unwarranted for us to consider an amendment to 
the amendment in the nature of a substitute that would say that 
we commend the participation rather than just welcome the 
participation? And I invite your advice in that regard, Mr. 
Bereuter.
    Mr. Bereuter. If the gentleman would yield.
    Mr. Hastings. I would yield to the gentleman.
    Mr. Bereuter. I thank the gentleman for his excellent 
suggestion. We are at that point where we are completing our 
markup. We know what the list is at this moment, and I would 
welcome this friendly amendment to actually welcome and to 
commend, and then we will list the countries that are currently 
providing personnel. I would suggest that we would say at the 
conclusion of that phrase, ``and others that will 
participate.'' And if the gentleman would make that----
    Mr. Hastings. I so offer that amendment to the motion 
allowing an amendment to the amendment in the nature of a 
substitute to bear the language that Mr. Bereuter just 
suggested.
    Mr. Bereuter. The Members understand then that the current 
list as of this moment of countries will just be added here in 
alphabetical order. Thank you. I thank the gentleman.
    Mr. Hastings. Thank you, Mr. Chairman.
    Chairman Gilman. If there is no objection to the proposed 
amendment, the amendment is agreed to.
    Mr. Crowley.
    Mr. Crowley. Thank you, Mr. Chairman. I first want to thank 
you for holding this important markup on the resolution 
regarding the situation in East Timor, and supporting the 
United Nations Security Council multinational force in East 
Timor. I would also like to commend Congressman Bereuter and 
Congressman Lantos for crafting this bipartisan resolution, 
which I am proud to be a cosponsor of, and I would like to 
associate myself with the remarks of Congressman Lantos.
    The situation in East Timor has deteriorated so rapidly 
that the international community was caught off guard, despite 
previous warnings of possible violence by pro-Indonesia 
militias. I am pleased and encouraged that the U.N. Security 
Council approved the resolution to deploy multinational forces 
in East Timor, and that troops are currently on the ground 
restoring a semblance of order.
    This sorely needed action by the U.N. will provide the 
security and hope that East Timor needs to build itself into an 
independent nation. However, food and medical care remains 
scarce. Hundreds of thousands of East Timorese are in hiding or 
refugees, many of whom are detained in West Timor.
    Put simply, the situation in East Timor is volatile and it 
will remain so for some time, and that is why I believe it to 
be of critical importance, and I hope, Mr. Chairman, that you 
agree, that the Full House International Relations Committee 
ought to hold hearings as soon as possible regarding East 
Timor.
    This Committee needs to address this issue and plan for the 
future of U.S. policy toward East Timor and Indonesia. Mr. 
Chairman, I hope that you will see fit to call a hearing as 
soon as possible to address this critical foreign policy issue.
    I yield back the balance of my time.
    Chairman Gilman. Thank you, Mr. Crowley. We certainly will 
take your suggestion under advisement.
    Mr. Smith. Mr. Chairman.
    Chairman Gilman. Mr. Smith.
    Mr. Smith. I will be very brief. I want to thank Mr. 
Bereuter and yourself and my friends on the Democratic side of 
the aisle for this bipartisan resolution. I think Mr. Crowley 
made a good point when he said we were caught off guard, but we 
were warned, as he knows, and as he said and noted, many were 
warning that there was a very real possibility that the militia 
would move, they would move quickly, they would also get very 
substantial support from the Indonesian military--and just in 
terms of the Indonesian military, I hope there will be no 
effort made by the Administration to rejoin the cooperation 
with that military until there is a real and genuine and 
authentic vetting of that military's ranks from the very top 
down to the bottom.
    We had hearings in my Subcommittee last year, and we 
pointed out that the JACIPS Program was actually training 
people from COPASIS, and there were no records kept, Mr. 
Chairman, none whatsoever, as to where those people took those 
skills and employed those skills.
    We heard from people who had been tortured by COPASIS, the 
so-called Red Berets. I think it behooves us to be very slow 
before there is any kind of cooperation with that military 
except to say get your act together, we will work with you on 
that, but we will not be training you in sniper training and 
urban guerrilla warfare and other kinds of actions that make 
them more efficient, increasing their efficacies in hurting 
innocent civilians, as they have done in East Timor, as they 
did previously in Djakarta.
    I do hope the Administration will not move--I know they cut 
off the cooperation, but that cooperation should have been cut 
off months ago as these allegations substantiated by the human 
rights community became known. We should not have been caught 
off guard, but the response, thankfully, led by the 
Australians, was a good one. It was slow in happening, but, 
thank God, it is happening, and hopefully it will have a 
relatively positive end.
    Chairman Gilman. Thank you, Mr. Smith.
    Ms. McKinney.
    Ms. McKinney. Thank you, Mr. Chairman. I had wanted to lend 
my voice of support for the Bereuter resolution. Of course, 
right now it is a little bit difficult, but I do want to 
associate myself with the very strong remarks of my colleague 
from New Jersey, Mr. Smith.
    I have a statement that I would like to submit for the 
record.
    [The prepared statement of Ms. McKinney appears in the 
appendix.]
    Chairman Gilman. Without objection, your full statement 
will be made part of the record.
    Chairman Gilman. Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman. I think all of us 
share some responsibility here, having watched the situation in 
East Timor for decades from the days of the Portuguese leaving. 
The Indonesians came in and took over East Timor. The struggle 
there for freedom has been a long one, and the tragedy that has 
now left somewhere between 3- and 600,000 people having fled 
their homes, as many as several hundred thousand over in West 
Timor, is a warning to all of us. In areas of the world where 
we see crises coming, we need to act in a much faster manner.
    It also restates the importance of the United Nations. It 
would have been difficult, if not impossible, to get 
international agreement in placing the troops in East Timor 
without the United Nations as the vehicle, and it behooves us 
as Members of Congress to expedite full funding for the United 
Nations, including the paying of our debts. The United Nations 
has been a vehicle that has fostered American foreign policy 
interests and world peace, and this is just one more instance 
where the United Nations hopefully has shortened the moments of 
terror for the people of East Timor.
    I commend Mr. Bereuter and Mr. Lantos, Mr. Faleomavaega, 
and others who have been involved in this effort, and commend 
the Chairman for moving it so rapidly.
    Chairman Gilman. Thank you, Mr. Gejdenson.
    Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman, I will be very brief. 
I also would like to associate myself with the comments of the 
gentleman from California, Mr. Lantos, as did Mr. Rohrabacher. 
I think he made several excellent points. I agree with all of 
them. I would like to be involved in the letter that was 
referred to with relation to Japan. I think it is time that 
Japan, and it is understandable why early on after World War II 
they were not involved around the world, but at this point that 
is a long, long time, and I think it is time that they bear 
their share of responsibilities. So I would very much be 
interested in involving myself with respect to that letter.
    Chairman Gilman. Thank you, Mr. Chabot.
    Are there any other Members seeking recognition? If not, 
and if there are no further amendments, the question is on the 
Bereuter amendment in the nature of a substitute as amended. 
All those in favor of the amendment in the nature of a 
substitute as amended say aye.
    All those opposed say no.
    The ayes have it.
    The gentleman from Nebraska, Mr. Bereuter, is recognized to 
offer a motion.
    Mr. Bereuter. Mr. Chairman, I want to thank my colleagues 
for their support and their comments. I move that the Chairman 
be requested to seek consideration of the pending resolution, 
as amended, on the suspension calendar.
    Mr. Brady. Mr. Chairman, I was seeking recognition because 
I have an amendment at the desk. I think it will only take 
about 2 or 3 minutes, if I may.
    Chairman Gilman. By unanimous consent we will vitiate what 
has occurred. Please distribute the Brady amendment.
    Mr. Brady is recognized. The clerk will read the amendment.
    Ms. Rush. Amendment by Mr. Brady, in paragraph 13 A.
    [The information referred to appears in the appendix.]
    Chairman Gilman. The amendment is considered as having been 
read. Mr. Brady is recognized for 5 minutes to speak on his 
amendment.
    Mr. Brady. Thank you. I first want to commend Mr. Bereuter, 
as he should be, for his leadership in his role, and to you, 
Chairman Gilman, for your time and action on this important 
resolution. The resolution expresses the view of the House of 
Representatives on East Timor, an important area for us.
    This amendment simply ensures that this resolution reflects 
an informed view of America's role in this region. The 
amendment requests the President, in effect, to estimate the 
additional costs of this new deployment and identify how it 
will be paid for. It is an important amendment long term for 
us, because as you know, we have stretched our troops and our 
military resources so thinly around the world today we need to 
know how much this new deployment will further stretch our 
precious security resources.
    The amendment is common sense, because one by one over the 
years these deployments have added up to more than $17 billion. 
These new costs have diverted billions of unbudgeted dollars 
from our existing commitments and have reached a level where we 
are squeezing other of America's important priorities. This 
amendment should be bipartisan, because the President and 
Congress, we are all on the same team here on world peace, on 
America's team.
    As we work hard together to set our financial priorities 
this year and in the future, we need to know, ought to know, 
what is of less priority. In the past, these deployments have 
come either directly out of the Social Security Trust Fund or 
have diverted dollars from national security. It is important, 
I think, in our planning purposes that we know, if they are not 
to come from Social Security or from national security, how 
many veterans will be affected because of less dollars; how 
many seniors will get less health care; how little education 
will we have; what aid to other countries might be reduced or 
limited because of these actions.
    I think it is important--as Mr. Faleomavaega pointed out, 
he has a strong opinion of who should be next in line for our 
assistance--it is important for us to plan for that help and 
also to set our priorities as a Congress, as partners, the 
White House, whoever may be there, and Congress, whoever may be 
here. I believe this is a very responsible common sense 
amendment that takes nothing away from the substance and, if 
anything, sets a precedent that, little by little, will be 
important for future planning.
    I would respectfully urge support.
    Mr. Bereuter. Mr. Chairman.
    Chairman Gilman. Mr. Lantos.
    Mr. Lantos. Mr. Chairman, I want to speak in the strongest 
possible terms against the adoption of this amendment, which 
far from it being bipartisan or nonpartisan, it is an appalling 
piece of policy, particularly in view of the fact that we have 
designated easily foreseeable items such as the Census as 
emergency items, not requiring any offsetting provisions. To 
take this item, which is so clearly an emergency, as is the 
earthquake in Taiwan or Turkey, and make it one that requires 
offsetting items would be both hypocritical, nonsensical and 
awfully bad public policy.
    I don't want to take more time on this, despite the fact 
that my views are expressed in very mild tones, but I think it 
is extremely important that we overwhelmingly and on a 
bipartisan reject this. This is a military emergency where the 
United States is playing a relevantly minor supporting role, 
and to call for offsetting cuts in other budgetary categories, 
I think, is absurd.
    I strongly urge my colleagues to reject this amendment.
    Chairman Gilman. Thank you, Mr. Lantos.
    Mr. Bereuter.
    Mr. Bereuter. Mr. Chairman, reluctantly, I oppose the 
amendment as written. I am reluctant only because Mr. Brady is 
such a valuable Member of the Committee and I am sure has good 
intentions in offering it. Indeed, I share some of the concerns 
of Mr. Brady about the number of the open-ended, unfunded 
commitments this Administration seems to have been making 
around the world. Actually, I have been vocal on this issue.
    We were bypassed in some ways in the involvement on Kosovo 
and Bosnia, and I think it is incumbent upon the Administration 
to consult closely with Congress before it considers further 
assistance in East Timor. However, this is not Bosnia or 
Kosovo. We have already deployed, or are in the progress of 
deploying, 200 personnel, most of whom are going to Darwin. The 
operation is underway. For us to suggest now that this should 
be contingent is inappropriate.
    I remind my colleagues that Australia is a key strategic 
non-NATO treaty ally of the United States. Australia is 
certainly in a different status. I cannot think of a more loyal 
ally that we have had over the last 80 years. Every time we 
have been involved in a conflict, the first people to show up 
with us have been the Australians. I urge you sometime to visit 
the war memorial in Canberra. It does anything but glorify war. 
It shows an incredible number of times that the Australians 
have come in to help on the right side of a conflict. They have 
erected an extraordinary memorial to America's involvement with 
them and saving, as they put it, Australia during World War II.
    For these and other reasons, I am opposed to making our 
support for these limited operations contingent upon the 
President providing offsets. We are already helping the 
Australians and others in that multinational force. Now, if Mr. 
Brady wants to change ``contingent upon'' to ``call upon the 
President to provide spending offsets,'' I can support that. I 
think we all know, want to know, where the resources are going 
to come from for this operation.
    Finally, I remind my colleagues not to read more into the 
resolution than it actually says. Support the base resolution 
that provides for emergency deployment of this very limited 
U.S. logistical and other technical assistance. Our treaty ally 
has asked us for this limited support. They are leading a 
multinational effort. It is the kind of support a fire company 
provides to a neighboring fire department to help it extinguish 
an immediate blaze. It pledges nothing else.
    Clearly the Committees on Oversight Appropriations, Armed 
Services, and International Relations will demand cost 
information from the Administration, and will subsequently act 
upon it. Given the emergency nature of the situations, the fact 
that we are already properly assisting the Australians and the 
other countries in what is really only a limited supporting 
role, I cannot support making current ongoing operations 
contingent on the President providing offsets, especially when 
the amendment provides no time line for such actions.
    So, although I appreciate the gentleman's intent and his 
track record, I think it is very important that we reject the 
gentleman's amendment.
    Chairman Gilman. Thank you, Mr. Bereuter.
    Mr. Sherman.
    Mr. Sherman. I would also oppose the amendment. I would 
point out that Congress has not been excessively strict in 
defining what is an emergency. But this, by any definition, let 
alone the more liberal definitions we seem to have adopted, is 
an emergency. Certainly at the beginning of this fiscal year, 
the one that we are in now, we could not have fathomed what has 
happened in East Timor.
    Second, this is a period when we do have a Federal budget 
surplus. Finally, this is an international conflict where we 
are doing far less than the American people would expect that 
we would have to do, because the Australians are doing far more 
than other allies of ours have done in other parts of the 
world. So here is a case where we are bearing our proportionate 
share, or even less than a proportionate share of dealing with 
this crisis, and we ought to strongly support that effort.
    Chairman Gilman. Thank you, Mr. Sherman.
    Mr. Rohrabacher.
    Mr. Rohrabacher. I rise in strong support of what Mr. Brady 
is trying to accomplish, and support his amendment. We can sit 
here all day long and posture about what--how we believe in 
human rights and we believe in this and we believe in that. But 
the American people have every right to ask us, in relationship 
to what do we believe in, these things.
    We aren't willing to prioritize, we don't believe in any of 
this stuff. The fact is that we believe, and those of us who 
believe in human rights and are advocates of human rights 
believe that at a certain price tag that we want to make sure 
that Americans will go out and do this. But I for one, for 
example, am not willing to support this operation down in East 
Timor if it would cost the same as what we are spending in 
Kosovo, or in Bosnia. The American people have every right to 
know what the price tag is, and to find out where it is coming 
from. Then they will find out what we really believe in.
    The fact is that I think that this is going to be a cost 
effective operation. I support this operation, mainly because 
it is limited in the amount of money that we are going to drain 
away from other priorities. But there are other things we can 
take this money from. How about--if Mr. Brady is willing to put 
himself out and get beat up for it--how about we take it out of 
the aid to Egypt and Israel. There is a big billion dollar 
package for you. No, but everybody wants to have it all--
everything for everybody.
    No, Mr. Brady is being very courageous today by trying to 
make sure that we are being responsible, making sure when we 
tell people that we believe in something, we really believe in 
it and we are willing to prioritize to prove that.
    Mr. Bereuter. Would the gentleman yield.
    Mr. Rohrabacher. I certainly will.
    Mr. Bereuter. I thank my colleague from California for 
yielding. As I said to the gentleman from Texas and would just 
reiterate it here for emphasis, if the gentleman would call 
upon the President to provide spending offsets, it would seem 
to me to be an entirely appropriate request from the Congress 
and a bipartisan one. However, when you say that our support 
must be only contingent upon offsets received from the 
President, that is a different matter.
    I would just like to make that distinction for the 
gentleman.
    Mr. Rohrabacher. I am happy to let you have that time. But 
I, of course, disagree with that point. There again, you are 
either making it real or you are not. Mr. Brady's approach is 
making it real. We really do believe in human rights enough to 
insist that, contingent upon other things being cut, that we 
are not going to get involved in this. Otherwise we don't 
believe in it. Otherwise, we are just saying the American 
people can absorb any amount of cost that we decide, and we are 
not going to reduce spending elsewhere in order to come up with 
this money.
    So, Mr. Brady, thank you very much for this amendment. 
Thanks for putting us on the spot. I guess many of us would 
prefer not to be put on the spot. I would have preferred not to 
be put on the spot. But I think it is important for us to keep 
these types of things in mind. Every time we do call for 
spending somewhere, it is coming out of somewhere else.
    Mr. Berman. Would the gentleman yield?
    Mr. Rohrabacher. Certainly I will to my good friend from 
California, Mr. Berman.
    Mr. Berman. Thank you, Mr. Rohrabacher. Putting someone on 
the spot, that would be an amendment that said we are going to 
take it from here, and we are going to take it from here, and 
we are going to take it from here, in order to put it here. 
That is an amendment that puts people on the spot. This is not 
an amendment that puts people on the spot; calling on the 
President to come up with offsets is not an amendment that puts 
people on the spot.
    The President sent, at the beginning of the budget year, a 
series of offsets to justify the levels of the spending that he 
was proposing in his budget, and the Republican majority has 
rejected each and almost every single one of those offsets, and 
rather than substitute their own offsets, they have declared 
the Census an emergency. They have proposed forward funding. 
They have pushed things to supplementals that will come, but 
come a little bit later.
    When we talk about putting people on the spot, let us 
remember what people putting people on the spot really is.
    Mr. Rohrabacher. Reclaiming my time, I think the gentleman 
has made some very good points. Listen, I am not here defending 
everything that the Republicans do. I think what you just said 
makes very good points. Perhaps this is the first step toward 
going in the right direction. But I agree with the points you 
made.
    Chairman Gilman. The gentleman's time has expired. Is 
anyone else seeking recognition?
    If not, I want to commend the gentleman from Texas, Mr. 
Brady. Many of us agree with the objectives of his amendment. I 
believe that the gentleman from Texas thinks that the 
Administration should have to identify how it expects to pay 
for deployment; however, I believe that our Nation's 
participation in a multinational force should not be contingent 
upon the identification of such offsets.
    Our forces are already participating in a logistical and 
supportive role, so the amendment is overtaken by events. While 
I commend the gentleman for his amendment, I cannot support his 
proposal. Is anyone else seeking recognition?
    If not, the question is now on the Brady amendment. All in 
favor signify in the normal manner.
    Those opposed.
    The amendment is not agreed to.
    Mr. Brady. Thank you, Mr. Chairman. I appreciate it.
    Chairman Gilman. Thank you.
    Mr. Brady. I know when I am not on a roll.
    Chairman Gilman. Are there any other Members seeking 
recognition for any other amendments?
    If not, the question is on the Bereuter amendment in the 
nature of a substitute as amended.
    All those in favor of the Bereuter amendment in the nature 
of a substitute as amended say aye.
    All those opposed say no.
    The ayes have it.
    The gentleman from Nebraska, Mr. Bereuter, is recognized 
now to offer a motion.
    Mr. Bereuter. Mr. Chairman, I reiterate, I move that the 
Chairman be requested to seek consideration of the pending 
resolution, as amended, on the suspension calendar.
    Chairman Gilman. The question is now on the motion of the 
gentleman from Nebraska.
    All those in favor of the motion say aye.
    Those opposed say no.
    The ayes have it, and the motion is agreed to.
    Further proceedings on this measure are postponed.
    We will now move to H. Res. 181, condemning the murder of 
Americans by the FARC, or the Revolutionary Armed Forces of 
Colombia.
    The Chair lays the resolution before the Committee.
    The clerk will report the title of the resolution.
    Ms. Rush. House Resolution 181, a resolution condemning the 
kidnapping and murder by the Revolutionary Armed Forces of 
Colombia, FARC, of 3 United States citizens, Ingrid 
Washinawatok, Terence Freitas, Lahe'ena'e Gay.
    [The information referred to appears in the appendix.]
    Chairman Gilman. The resolution was referred to the 
Subcommittee on the Western Hemisphere and reported without 
amendment.
    Without objection, the clerk will read the preamble and 
operative language of the resolution, in that order, for 
amendment.
    The clerk will read.
    Ms. Rush. Whereas Ingrid Washinawatok, a member of the 
Menominee Indian Nation of Wisconsin, Terence Freitas----
    Chairman Gilman. Without objection, the resolution is 
considered as having been read and open to amendment at any 
point.
    Does any Member seek recognition?
    Mr. Berman.
    Mr. Berman. Thank you, Mr. Chairman. I urge support for 
House Resolution 181. The Colombian rebel group FARC's murder 
of three innocent American citizens earlier this year can only 
be described as senseless and horrific. These individuals, 
including Terence Freitas, whose mother lives in my 
congressional district, were in Colombia only to provide 
humanitarian assistance to indigenous people in the northeast 
part of the country.
    Regrettably, although FARC has admitted that their 
guerrillas are responsible for the killings, they have refused 
to cooperate with Colombian or U.S. authorities to resolve the 
case. This important resolution condemns that heinous crime, 
and demands that those responsible are swiftly brought to 
justice.
    I urge my colleagues to support the resolution.
    Chairman Gilman. Thank you, Mr. Berman.
    Ms. Lee.
    Ms. Lee. Thank you, Mr. Chairman.
    Let me just say that Terry Freitas, who was kidnapped and 
murdered by the Revolutionary Armed Forces of Colombia, was a 
constituent. He and his companions were traveling and were 
brutally murdered, and they were there trying toprotect the 
land, the land sustained from U.S. and Colombian petroleum 
developers. Now in our meeting yesterday--and thank you very 
much for the invitation to that meeting--with the President of 
Colombia, we learned a great deal about the Colombian 
Government's new plan for peace and their economic development 
and counter drug efforts.
    But I would like to indicate that there has been a letter 
written by Mr. Berman's constituent, Julie Freitas, the mother 
of Terry Freitas, who wanted to make sure that we understand 
that she does not want to see these tragic murders utilized in 
a way to try to fund additional military aid to the Colombian 
armed forces.
    I would like to insert the letter for the record. It was 
published in the Washington Post on May 22nd, 1999.
    Chairman Gilman. Without objection.
    [The information referred to appears in the appendix.]
    Ms. Lee. Thank you very much. I urge all of the Committee 
Members to support this resolution, because I do believe that 
those responsible for the murders of Terry and his colleagues 
should be arrested and brought to trial.
    Thank you very much.
    Chairman Gilman. Thank you, Ms. Lee.
    Mr. Crowley.
    Mr. Crowley. Mr. Chairman, on February 25th, 1999, three 
U.S. citizens were kidnapped and later murdered in Colombia by 
the terrorist organization, the FARC. These Americans were not 
in Colombia to hurt anyone, to spy for anyone, or to cause 
trouble. They were there to help the U'wa people by providing 
educational assistance. Yet they were brutally executed because 
of a continuing reign of terror which makes no distinction 
between combatants and innocent civilians.
    Atrocities are being committed every day in Colombia, and 
not just by the FARC. Right wing paramilitary groups supported 
by the Colombian military, and even elements of the Colombian 
military itself, have been linked to numerous human rights 
violations, and many critics believe that U.S. policy--blame 
U.S. policy for helping to bring about the state of affairs in 
Colombia today.
    Mr. Chairman, I was in Colombia on February 25th, the day 
the Americans were kidnapped. Like my colleagues, I mourn this 
senseless act and want to see the perpetrators brought to 
justice.
    I support this resolution. I look forward to the 
opportunity to debate the larger problems of Colombia and U.S. 
policy in the region at a later time.
    Chairman Gilman. Thank you, Mr. Crowley.
    Any other Members seeking recognition.
    The gentleman from Wisconsin, Mr. Green, and a bipartisan 
group of cosponsors brought this important resolution before 
our Committee. In early March, these three Americans were in 
Colombia trying to help an indigenous group when they were 
brutally murdered by the Revolutionary Armed Forces of 
Colombia.
    The FARC, designated by the State Department as a foreign 
based terrorist group, killed these people in cold blood. These 
senseless deaths have brought the toll of innocent American 
lives taken in Colombia to date by the FARC and the National 
Liberation Army to 15. As of today, 7 Americans are still being 
held hostage by these terrorist groups. In addition, we still 
do not know the fate of the longest held captives, Mark Rich, 
David Bankins, and Rich Tennenhof, kidnapped by the FARC in 
1993.
    This morning I wrote to Secretary of State Madeleine 
Albright to ask that the perpetrators of the murders of these 
three innocent Americans who are the subject of this resolution 
be forced and they be included under the Department of State's 
counterterrorism reward program.
    I recently sponsored legislation for an increase of reward 
under that program to $5 million. I hope that widely 
publicizing this reward in Colombia will help to speed the 
arrest and conviction of those responsible for this 
reprehensible crime.
    Accordingly, I urge my colleagues to support this 
resolution.
    If there are no other Members seeking recognition or 
offering amendments, the gentleman from Nebraska, Mr. Bereuter, 
is recognized to offer a motion.
    Mr. Bereuter. Mr. Chairman, I move that the Chairman be 
requested to seek consideration of the pending resolution on 
the suspension calendar.
    Chairman Gilman. The question is now on the motion of the 
gentleman from Nebraska.
    All those in favor of the motion say aye.
    Those opposed say no.
    The ayes have it. The motion is agreed to.
    Further proceedings on this measure are now postponed.
    We will now move to consider H.R. 2608, to amend the 
definition of major drug transit countries.
    The Chair lays the bill before the Committee.
    The clerk will report the title of the bill.
    Ms. Rush. H.R. 2608, a bill to amend the Foreign Assistance 
Act of 1961 to clarify the definition of ``major drug transit 
country'' under the international narcotics control program.
    [The information referred to appears in the appendix.]
    Chairman Gilman. Without objection, the first reading of 
the bill is dispensed with. The clerk will read the bill for 
amendment.
    Ms. Rush. Be it enacted by the Senate and the House of 
Representatives of the United States of America and Congress 
assembled, Section 1. Amendment to----
    Chairman Gilman. Without objection, the bill is considered 
as having been read. It is open to amendment at any point. This 
bill is within the jurisdiction of the Full Committee, and I 
will recognize myself briefly to introduce the bill.
    A recent front page story in the Miami Herald indicated 
that the Administration has launched a full scale review of the 
role of Cuba in the international drug trade. It is a review 
that, along with many others here in the Congress, I fully 
welcome. We especially look forward to learning of the 
Administration's conclusions on Cuba's links to drug 
trafficking targeting our own Nation.
    The Miami Herald also points out that as part of the State 
Department's review its lawyers are having a hard time sorting 
out what a major drug transiting nation may be under current 
Federal law. It is struggling with whether the designation of a 
major transit nation should take into account drugs that may 
just pass over Cuban skies or through its territorial waters on 
the way to our own Nation. Today, in fact, the waters and air 
space over Cuba play an important role in drug trafficking into 
southern Florida.
    Loads of drugs are moved through Cuban air space and 
dropped into the waters near Cuba for fast boat transport to 
our Nation. A common sense interpretation of the law should 
consider whether the mere transport of these illicit drugs over 
the skies of Cuba, or through its territorial waters, has a 
significant effect on our Nation, therefore qualifying Cuba as 
a major transiting country.
    If that interpretation of drug trafficking impacts us 
significantly, then these types of drug shipments should be 
considered a factor in determining whether a nation like Cuba 
is a major drug transiting country. While debate over this 
interpretation has caused some confusion in the State 
Department, we can rectify that today by passing this measure, 
H.R. 2608.
    The bill before us, which I introduced along with Chairman 
Burton, is very simple. It addresses the issue of what a major 
transiting nation list determination is under the Foreign 
Assistance Act, section 481(e), as it relates to drugs headed 
for our own Nation. Each year that list is provided to the 
Congress on November 1st.
    This bill merely classifies that the term ``through which 
is transported'' expressly includes drugs passing through the 
territorial air space and/or waters of a country on the way to 
our Nation, and that in doing so, the level of drugs entering 
our Nation is significantly affected. There should be no need 
for any more legal resource time on this issue with our State 
Department if we enact this simple bill.
    The State Department must get on with the compilation of 
this year's majors list due here in November and do it in a 
straightforward and honest manner based on the facts. 
Accordingly, Committee staff, after extensive discussions with 
the International Narcotics Bureau at the State Department, 
concluded that this bill would not create any new criteria that 
the INL isn't already using when they make the majors 
determination.
    The bill before us helps make this majors list 
determination a clear, honest, and open one. So I say let the 
chips fall where they may, on Cuba or whatever other transit 
nation meets the statutory and common sense criteria for a 
major drug transiting nation.
    Is there any other Member seeking recognition?
    Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman. I am glad to hear 
you say let the chips fall where they may. If the chips only 
seem to be aimed at Cuba, I don't have a problem with that 
myself.
    But my question is, Mr. Chairman, what you are saying is if 
the plane or the boat goes in a country's territorial water or 
air space, that country then gets described as a bad guy 
country, is that correct, Mr. Chairman?
    Chairman Gilman. That is correct. The State Department INL 
Bureau has told us, our Committee staff, that this bill doesn't 
create any new criteria that would innocently add places like 
Nicaragua and Costa Rica----
    Mr. Gejdenson. Mr. Chairman, I only have a little bit of 
time. I am just trying to get a sense of what is happening 
here. So if a plane leaving with drugs from Colombia were to 
fly to Miami International Airport, of course every American 
state that is a border state is exempt because they are not 
foreign nations, but if we use that standard on every one of 
our states, every one of our states would be listed as a bad 
guy state, because for drugs to get into the country, they have 
to go through the state's waters or air space.
    So for instance, every one of the American Airlines flights 
that brought drugs from Colombia to the United States, even if 
those planes flew over Cuba, they also flew over American air 
space, but we are not dealing with America here today.
    So I guess what I am saying is, how do you decide if the 
American Airlines planes taking drugs, leaving Colombia, if 
they had gone over French and English possessions in the 
Caribbean, which still exist much to my dismay, are the French 
and English governments to be listed as drug facilitating 
states, Mr. Chairman?
    Chairman Gilman. If the gentleman would yield----
    Mr. Gejdenson. Yes, I would be happy to yield.
    Chairman Gilman [continuing]. Allow me to respond.
    Mr. Gejdenson. Yes, please don't read that paragraph again, 
Mr. Chairman.
    Chairman Gilman. I will read you another paragraph.
    Mr. Gejdenson. Excellent. I am happy to get a new 
paragraph.
    Chairman Gilman. The Foreign Assistance Act, section 
4815(a) and (b), defining a major drug producer or major 
transit nation refers to drugs that, and I quote, 
``significantly affect the United States or are a direct 
source.'' It is clear what the target is, it is not every 
nation, only those whose territory significantly impacts our 
nation on the use of illicit drugs.
    Allow me to complete my explanation----
    Mr. Gejdenson. Yes, please, Mr. Chairman.
    Chairman Gilman. What is going on in the skies over Cuba, 
as well as its territorial waters, is affecting our Nation, let 
there be no mistake about that. The only issue is whether or 
not it is significantly impacting our Nation.
    Mr. Gejdenson. Mr. Chairman, as my crack staff here reads 
the section, it basically says traveling through the country's 
territorial air space or water.
    Now, again, if I am leaving from Colombia on an American 
Airlines plane filled with drugs, if it flies over Cuba, which 
seems to be the country you are after, even though you said you 
wanted the chips to fall where they may, but aside from Cuba, 
if that plane were to travel over British and French 
possessions, are we then to place Britain and France on the 
drug bad guy country list?
    The French are making an effort to stop drugs, I assume. 
The English are making an effort to stop drugs, I assume. But 
if they are making an effort but we know that from the evening 
news that dozens of flights carrying drugs from Colombia went 
over their possessions' air space, is the State Department now 
to designate England and France in the same category as other 
countries that we think are bad guy countries?
    Chairman Gilman. Will the gentleman yield?
    Mr. Gejdenson. Yes.
    Chairman Gilman. This bill merely changes section 5(b)and 
makes it clear that through which are transported such drugs or 
substances, including the territorial air space, land and water 
of a country. Now, let me note that the President, on December 
4th of 1998, in accordance with the provisions of section 
490(h)(8)of the Foreign Assistance Act of 1961, determined that 
the following countries are major illicit drug producing or 
drug transit countries, and he noted Afghanistan, Aruba, the 
Bahamas, Belize, Bolivia, Brazil, Burma, Cambodia, China, 
Colombia, Dominican Republic, Ecuador, Guatemala, Haiti, Hong 
Kong, Jamaica, Laos, Mexico, Nigeria, Pakistan, Panama, 
Paraguay, Peru, Taiwan, Thailand, Venezuela and Vietnam.
    The President made that determination.
    Mr. Gejdenson. Mr. Chairman, excuse me for not 
understanding, but the President is not offering this 
amendment. The State Department is not offering this amendment. 
You and Mr. Burton apparently are offering this amendment. I 
have nothing against this amendment. I just want to understand 
what you want to occur as a result of its passage. This is not 
a trick question.
    Chairman Gilman. Would the gentleman yield?
    Mr. Gejdenson. Let me reclaim my time for a moment because 
your answers have taken up most of my time. If a plane leaving 
Afghanistan has drugs on it and it flies across Eastern Europe 
covering every one of our European allies' skies, and we then 
catch them at JFK, are we to place--under your definition, not 
the President's, not anybody else's, whatever your staff is 
telling you now or whatever you are determining--are we to 
place all of those countries on the drug bad guy list of 
countries?
    Chairman Gilman. Would the gentleman yield?
    Mr. Gejdenson. Yes.
    Chairman Gilman. The intent of this legislation is to try 
to stop nations from allowing transiting through their waters 
or air space----
    Mr. Gejdenson. I understand that.
    Chairman Gilman [continuing]. That will substantially 
affect our own Nation. That is what we are trying to do. I am 
asking the gentleman now will he respond; is the gentleman 
objecting to our trying to----
    Mr. Gejdenson. I will answer that question without a 
written statement, the answer is no, I want to stop drugs from 
coming into this country. What I do not understand, and 
frankly, I don't know what this amendment is going to do, and 
that is what I am trying to determine, I understand if a plane 
leaves Colombia and flies over Cuba you want the government to 
put Cuba on the bad guy states that helped transit drugs?
    Chairman Gilman. If Cuba--would the gentleman yield.
    Mr. Gejdenson. Yes.
    Chairman Gilman. If Cuba is allowing their air space to be 
continually utilized for transiting of drugs or allowing their 
territorial waters to be utilized----
    Mr. Gejdenson. Cuba goes on the list.
    Chairman Gilman. Cuba would go on the list.
    Mr. Gejdenson. If we know now, as you and I both know from 
watching the evening news, that American Airlines planes have 
been flying drugs across British and French possessions, should 
we put Britain and France on the drug bad country list?
    Chairman Gilman. Will you yield?
    Mr. Gejdenson. You said you weren't talking about any 
countries from the beginning?
    Chairman Gilman. Would the gentleman yield?
    Mr. Gejdenson. Yes.
    Chairman Gilman. We are talking about any transport which 
substantially affects or significantly affects our own Nation.
    Mr. Gejdenson. My understanding is that the FBI said that 
what American Airlines employees were doing was significant, 
there were lots of drugs. It came in the food carts, it came in 
large quantities. If the same plane, if somebody went down and 
bought a 727 and filled it full of cocaine and flew through 
Cuban waters, or flew through Cuban air space, or took a boat 
that went through Cuban waters, you would then determine, it is 
my understanding, that Cuba was facilitating drug transit.
    I am asking you if we then find out that that same plane 
flew over French and British possessions, do we put France and 
the U.K. on the same list?
    Chairman Gilman. Will the gentleman yield?
    Mr. Gejdenson. Yes.
    Chairman Gilman. We are talking about multi-kilo loads.
    Mr. Gejdenson. Multi-kilo loads, the same----
    Chairman Gilman. As it has been occurring in Cuban waters 
where they allow flights to drop off drugs into its territorial 
waters for transit to our own Nation.
    Mr. Gejdenson. Let me just say----
    Chairman Gilman. You asked what our objective is.
    Mr. Gejdenson. The objective is to get Cuba.
    Chairman Gilman. No, the objective is to try to reduce 
transiting of narcotics through nations that surround our 
Nation.
    Mr. Gejdenson. I am going to quit, Mr. Chairman, because I 
am not getting anywhere. We have other things to do. Again, if 
the same plane that is carrying a ton of cocaine flies over 
Cuban waters and the Cubans don't catch it, and that same plane 
had flown over Jamaica, French possessions, English 
possessions, are we going to put all of these other countries 
on the list?
    Chairman Gilman. The flights that go over Cuba, they drop 
their substance into the waters, territorial waters in Cuba, 
and are allowed to be picked up by other fast-moving boats to 
be transited to our Nation, and that is what we are concerned 
with. We are trying to reduce the amount of shipment of drugs 
into our Nation country.
    Mr. Gejdenson. That helps me.
    Chairman Gilman. We are trying to provide----
    Mr. Gejdenson. Thank you.
    Chairman Gilman [continuing]. A clear definition for the 
State Department that has been wrestling with this problem.
    Mr. Gejdenson. Thank you. Let me try to get to it. Now what 
you are saying, the plane flies over a country's waters and it 
drops the drugs in the water and high speed boats take those 
drugs away.
    Chairman Gilman. That is what has been happening.
    Mr. Gejdenson. What happens if the country is making an 
effort to catch those people, and just a poor country, they 
don't have a lot of money, I am not talking about Cuba now, I 
am talking about Haiti, I am talking about one of these French 
possessions, they don't have a large navy. The plane flies 
over, it drops the drugs in the water, the high speed boat 
comes, and do we still put the country on the bad guy list even 
if it is trying to catch them?
    Chairman Gilman. Would the gentleman yield?
    Mr. Gejdenson. Yes.
    Chairman Gilman. The answer is yes. The President has put 
people--put nations on the major illicit drug-producing or 
drug-transiting countries list that have been friendly and 
trying to cooperate, but they are on the list because they have 
not completed their efforts to prevent transiting.
    Mr. Gejdenson. Thank you, Mr. Chairman. You have been very 
generous with time. It seems to me that we ought to put Florida 
and all our border states on the same list, because clearly 
those drugs are dropped in waters off of Florida and brought 
into Florida by boats. It is happening in Texas. I am sure it 
happens in every state along the coast.
    If that is your standard, then you ought to include, I 
guess, every state in the Nation on your list of bad guy 
states. Thank you.
    Chairman Gilman. We are talking about foreign nations right 
now and not our own Nation states. We have enough problem with 
our own Nation states.
    Mr. Rohrabacher.
    Mr. Rohrabacher. I would like to commend the Chairman for 
his efforts to get at a very real problem. I don't know how 
effective interdiction is going to be as long as there is a 
market in the United States where people use drugs. But I know 
that this Chairman is making a serious effort at trying to stop 
this problem, and the Ranking Member is making frivolous 
comments about this.
    Let me finish, Mr. Ranking Member, the fact is the Chairman 
is here in all seriousness, and the points that you were making 
were obviously not helping the situation, but belittling the 
Chairman's efforts. The fact is that we know that there is a 
problem in which Cuba is being used, their air space and their 
water space is being used, and you yourself acknowledged this, 
to transship drugs into the United States of America.
    The Chairman is very serious in his efforts to try to stop 
this.
    Mr. Gejdenson. Would the gentleman yield?
    Mr. Rohrabacher. Not until I finish, then I will be very 
happy to yield to my good friend Mr. Gejdenson.
    Now, we have a dictatorship in Cuba that hates the United 
States of America. Fidel Castro for the last 30 years since he 
came to power has had a visceral hatred for the United States. 
This has been his primary motive for the policies of his 
country, and this is one of the primary reasons we don't have a 
good relationship with the people of Cuba.
    Robert Vesco, it is no accident that Robert Vesco finds a 
safe haven in Cuba today. Robert Vesco is down there. Now we 
can't prove it. But there is every reason to believe that 
Robert Vesco has helped the drug cartel in Latin America 
organize a distribution system taking full use of Cuban air 
space and water space to distribute, to supply drugs to the 
United States of America.
    Castro managed to shoot down planes that were dropping 
pamphlets asking the people of Cuba to consider other opinions 
rather than Fidel Castro's. Now he can shoot down those 
airplanes, he has got that capability. Haiti perhaps doesn't 
have that capability of shooting down planes.
    Castro doesn't shoot down drug carrying planes. He doesn't 
interdict drug carrying ships, what he does is shoot down 
airplanes that drop pamphlets and ships that are carrying 
refugees. He is sick.
    This is a terrible regime, and his hatred of the United 
States is leading him to try to destroy us, destroy people in 
our inner city by smuggling, by helping in the drug smuggling. 
The Chairman is trying to be serious about this. By saying, oh, 
well, in order to do this we have to make sure every state in 
the Union that the plane crosses over is put on that list, that 
is a frivolous point, Mr. Ranking Member, a frivolous point.
    I would say this is a serious problem. We should thank the 
Chairman for trying to come to grips with it, trying--rather 
than trying to find little ways to try to undermine the effort. 
I applaud the Chairman. Thank you very much.
    Mr. Gejdenson. Would the gentleman yield?
    Mr. Rohrabacher. Yes, I would.
    Mr. Gejdenson. I am not going to judge if the Chairman's 
efforts or results will be frivolous. I don't think that my 
questions have been frivolous. You can make your own 
determination obviously. We have been trying to get answers to 
this question for some time. It seems very clear that the 
Chairman and lots of Members of this Committee are out to get 
Cuba.
    I am not a friend of any dictator. I am not a friend of 
Fidel Castro. But when you write legislation that, I think, is 
as badly written as this is, that the net result is you ought 
to just write an instruction to the State Department, put Cuba 
on the bad guy list, irrespective of what is going on, because 
the language in the legislation could lead one to the 
conclusion that any country that has an air transit route over 
it or any country that boats happen to go through that they 
can't stop are bad guy countries.
    As far as the examples that you gave, we shot down the 
entire Iraqi and the Bosnian air force, and we can't stop drugs 
coming into this country. Now, there is some discussion going 
on with the Castro government. Some people are optimistic about 
that. There are some people that are pessimistic about it. But 
I frankly think that a real effort, we ought to have a real 
standard by which we are going to place countries on a bad guy 
drug list and not try to create something to target Cuba. If 
you want to put Cuba on a bad guy list, put it on a bad guy 
list.
    But this language would lead you to believe that every 
country where drug transit occurs is a bad guy country. I don't 
think you can make that case.
    Mr. Rohrabacher. Reclaiming my time for one second, because 
we are running out of time here, the Chairman fully recognizes, 
and the rest of us should recognize, what intent means. In 
fact, the fact is Fidel Castro has over and over again 
expressed his intent toward the United States. That is to do us 
harm, and the fact that he is able to shoot down airplanes that 
drop leaflets and sink boats with poor refugees on those boats, 
that indicates that he has some capabilities, but he never 
seems to be able to initiate those same kinds of actions 
against the drug runners.
    Plus there is an intent on his part, and yes, he should be 
put on the list, and I applaud the Chairman's attempt to see 
Cuba put on that list. I would yield to the Chairman.
    Chairman Gilman. Thank you, Mr. Rohrabacher, we appreciate 
your supportive remarks.
    Mr. Hilliard.
    Mr. Hilliard. Thank you very much, Mr. Chairman. Mr. 
Chairman, I am not going to question the intent of the 
amendment, but let me discuss with you the effectiveness of 
that amendment. What it actually means is that all of the 
nations in the southern hemisphere below the states of Alabama, 
Georgia, and Florida will be designated as a nation--that may 
be designated rather as a nation that is involved with drug 
transiting.
    Now, the effect of that--and, of course, you stated you 
didn't add anything, but the effect of that would make it 
applicable--would make all the other provisions of that act 
applicable to all of those countries. We have countries that 
our are our friends, countries like Aruba, countries like 
Haiti, other countries that do not have the type of coast 
guard, do not have the type of army and air forces that we 
have, that would be subjugated to this act, and the effect of 
it would be that we have perhaps had a relationship with 
countries that have aided and assisted us as much as they 
possibly could in fighting the war on drugs.
    We are turning around and punishing them, because of their 
geographical location. This amendment is bad. The definition is 
overly broad and has unfairly targeted those countries that are 
geographically located in the southern hemisphere.
    So I hope that each Member of this Committee would take 
that into consideration and vote against it.
    Chairman Gilman. Thank you, Mr. Hilliard.
    Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. I think 
it has been documented time and time again by our own Nations 
officials that Cuba is, and has become, a transit point for 
drug trafficking and for money laundering. Our south Florida 
television stations have actually filmed drug running boats 
going from South America, coming from the Caribbean straight 
into the shores of Cuba. Our customs officials, our Coast Guard 
officials say they can't keep up with those boats and they have 
seen those going into the shores of Cuba.
    I think it is disingenuous at best to think that anything 
can happen in a totalitarian police state, which is the reality 
of Castro's Cuba, without the direct participation of Fidel 
Castro.
    The FBI, as Congressman Rohrabacher has pointed out, has a 
long list of fugitives from U.S. law who have sought refuge and 
have gotten refuge in Cuba, and that again is part and parcel 
of the Castro dictatorship to help those individuals who are 
breaking the law, escaping from U.S. justice, and he is giving 
them a safe refuge. Many of those have convictions for serious 
drug trafficking.
    To think that Cuba is a partner in our efforts to eliminate 
drugs is absolutely ridiculous. I think that we should come to 
grips with the reality that Cuba is a totalitarian police 
state, which not only condones drug trafficking, but allows 
those drug traffickers to seek refuge, and allows their shores 
to be used as transit points for illegal drug shipments, and 
allows money launderers. That is an important part of the drug 
trafficking trade, to seek refuge in Cuba.
    I congratulate the Chairman for dealing with this reality 
that is Castro's Cuba.
    Chairman Gilman. Thank you, Ms. Ros-Lehtinen.
    Mr. Faleomavaega.
    Mr. Faleomavaega. Mr. Chairman, I want to thank you for 
introducing this legislation. I certainly want to commend you 
for this program--or the issue of drug trafficking or just the 
issue of drugs, period. You have certainly been one of the most 
outstanding leaders on this Committee in pursuing this issue.
    I just want to ask if there is a representative of the 
State Department here with us, if it is all right, Mr. 
Chairman, if the person from the State Department could 
comment. I think there is no question about the intent, it may 
be the wording or for better clarification that we can work on 
this. I certainly would be open to any suggestions.
    I think it takes into consideration what Mr. Gejdenson 
expressed earlier, that it does not affect those countries that 
do not have histories, but just the fact of air flight over 
these countries I think raises the question.
    So I would like to ask the representative of the State 
Department.
    Chairman Gilman. Would you please identify yourself?
    Ms. Jacobs. I am Susan Jacobs, Deputy Assistant Secretary 
of Legislative Affairs at the Department of State. Thank you, 
Mr. Chairman.
    Chairman Gilman. Ms. Jacobs, I might note before you start 
that on July 28th, I sent this letter to the Secretary, 
Secretary Albright, ``the Committee would appreciate receiving 
comments from the Department of State on the following measure, 
H.R. 2608, to amend the Foreign Assistance Act of 1961 to 
clarify the definition of `major drug transit country' under 
the International Narcotics Control Program. It would be 
appreciated if we could receive your written views as soon as 
possible, since the Committee intends to consider this 
legislation next week and a copy of the measure is enclosed. 
Please direct the Department's response to us,'' et cetera.
    September 9th, we sent a similar letter, and we have been 
calling weekly to try to get a response but have not received 
any response.
    You may please proceed.
    Mr. Faleomavaega. I would like to thank you for taking the 
initiative and letting the Administration know, perhaps they 
have been a little slow in responding to the legislation. But I 
would appreciate, ma'am, if you could comment on that.
    Ms. Jacobs. OK. We don't believe that this legislation is 
necessary. We believe that the legislation we already have that 
identifies countries that allow the transit through their air 
space, through sea or over land--and it has a significant 
impact on the drug traffic in the United States--we already 
have the ability to label those countries.
    Chairman Gilman. Thank you, Mr. Faleomavaega.
    Mr. Chabot. Mr. Chairman.
    Mr. Faleomavaega. Mr. Chairman, still reserving my time.
    Chairman Gilman. Yes.
    Mr. Faleomavaega. I think there seems to be a suggestion 
here about a country that does a dominant amount, a majority 
amount of transiting seems to have a difference. Does that 
differentiate from the current provision of the law----
    Ms. Jacobs. Yes.
    Mr. Faleomavaega [continuing]. As the State Department----
    Ms. Jacobs. The way the law is now written, in order for a 
country to be placed on a major drug trafficking----
    Mr. Faleomavaega. Major.
    Ms. Jacobs. Major drug trafficking list, the traffic 
through that country has to have a significant impact on the 
drugs entering the United States.
    Mr. Faleomavaega. So if this American Airlines flight comes 
from Colombia and goes through Dominican Republic or Haiti or a 
French or British territory, that does not qualify under that 
interpretation, does it?
    Ms. Jacobs. No, sir, it wouldn't, not if they had no 
control over it.
    Mr. Faleomavaega. Does the State Department already have 
the authority to designate a country as a major trafficking 
transit country?
    Ms. Jacobs. Yes, we do, sir.
    Mr. Faleomavaega. Does the Administration consider this 
language to reinforce that?
    Ms. Jacobs. We don't believe that this language is 
necessary.
    Mr. Faleomavaega. Thank you.
    Chairman Gilman. Mr. Burton.
    Mr. Burton. Mr. Chairman, I can't for the life of me figure 
out why we are arguing this so extensively. Just recently, the 
Colombian National Police told the world there was seven and a 
half tons of cocaine that was going to Cuba and Castro tried to 
palm it off as being controlled, when it got to Cuba, by a 
Spanish company that Cuba owned the controlling interest in.
    I can tell you from the research we have done over the past 
many years, Ileana Ros-Lehtinen and myself, Lincoln Diaz-Balart 
and others, Bob Menendez, that nothing goes on in Cuba that 
Castro doesn't know about. For 7\1/2\ tons of cocaine to go 
through a front company in Cuba that was destined for the 
United States, and the Administration tried to say that that 
cocaine was not destined for the United States, it was going to 
Europe, to Spain and elsewhere.
    The fact is when we talked to the Drug Enforcement Agency, 
the DEA people, they said they never said that, and that there 
was a misunderstanding, and that they didn't have any 
indication that it was going to Europe. Those drugs were going 
to go through Cuba, probably to a pop company into Mexico and 
into the United States.
    Now they are a major drug trafficking country. Raul Castro, 
Fidel Castro's brother, is still under indictment in Miami, 
Florida for drug trafficking, as well as other Cuban officials. 
Now, they have been involved in drugs for a long, long time, 
and I think this legislation is timely. I think the Chairman is 
to be commended for sponsoring it.
    If we are concerned about drugs on our streets that are 
killing our kids, if we are concerned about the horrible crime 
problem in this country--over 70 percent of all crime is drug-
related--then we certainly ought to hold Fidel Castro's feet to 
the fire for being a major transit point of drugs. There is no 
question he is doing it. We all know it, and I think we ought 
to pass this legislation.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Burton.
    Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman. It seems to me, hearing 
from the Administration, that there is a process that is in 
place that will put someone on the drug majors list, and that 
process has due process and there are other things that are 
going into it. What this bill does it not add anything to it, 
in fact, what it is, and what I hear from my colleagues from 
the other side of the aisle, is they just want to go 
specifically after one country; that is like trying to 
establish a law because you are trying--you see someone you 
don't like and so, therefore, you create a law just for them, 
irrespective of what happens to everyone else.
    That is not the way of business, that is not the way things 
are done. If you want to have a legitimatized process, you 
cannot say I don't like this particular person in this process, 
so, therefore, I am going to change something else so that--and 
not effect other individuals in other countries. That is what 
this legislation does.
    Clearly we understand that--and I just don't understand, 
either, some of the statements, that as if Cuba is the one that 
is bringing all of the drugs into this country and killing all 
of our kids and all of that. Cuba is not the one--I don't know 
of any drugs actually being produced in Cuba. If we want to go 
over the drugs, let us go after where they are being produced, 
let us go there. Let us do what we have to do to stop it there 
so it can't fly over Cuba or anyplace else for that matter. If 
we stop it there, we don't have to worry about it coming into 
this country.
    That is where our fight should be, not just all over this, 
trying to change this piece of legislation when there are 
policies in place currently to put someone, a country, on a 
drug majors list if, in fact, they deserve to be there.
    We must make sure that we don't--I mean there is--I know of 
a number of instances where drugs have come in from Canada, and 
we can do the same thing there. But if we are going to try to 
target one country, don't try to make legislation that is going 
to do it in this sense that really demeans what is currently in 
existence.
    I yield back.
    Chairman Gilman. Thank you, Mr. Meeks.
    Mr. Chabot.
    Mr. Chabot. I will be very brief. I would like to address 
this to the State Department official again. In the existing 
legislation, the term ``through which are transported,'' is it 
your testimony that that would--under existing law--could 
include land or water or air space over the land?
    Ms. Jacobs. Yes, sir.
    Mr. Chabot. OK. So to clarify it in this manner doesn't 
harm anything?
    Ms. Jacobs. But the way this could be interpreted is any 
air space, any territorial water or any land, not necessarily 
having the significant impact that is now written into the 
current legislation.
    Mr. Chabot. It doesn't say any territory. It says includes 
a territorial air space. I think what the Chairman is doing is 
clarifying that these areas are to be included, including air 
space, which could be included right now, or water or land.
    I think it is very helpful legislation. If Cuba would be 
affected by this, so be it. I think it is appropriate for the 
Chairman to offer this legislation. I would commend him for 
doing so.
    Chairman Gilman. Thank you, Mr. Chabot.
    Ms. Lee.
    To our Members, we will vote on this, we will reconvene 
right after the votes on the Floor and come back and finish two 
quick measures.
    Ms. Lee. Mr. Chairman, I will be very brief. Let me just 
say that it is no secret where any of us stand in terms of U.S. 
policy toward Cuba in terms of what the issues are, in terms of 
Fidel Castro. Let me say, however, that I believe in this 
instance all of us are, or at least both sides, those who 
support normalizing relations in Cuba and in the embargo and 
those who don't, see this as a broader effort to deal with Cuba 
in the strictest sense, not an effort really to deal with the 
whole anti-drug effort.
    I believe our government has been engaged in--General 
McCaffrey, all of our officials have really been engaging in 
counternarcotics efforts, and I believe they are working. I 
think we should allow the process to move forward. I don't 
think we need to muddle it up with any issues with regard to 
our views, our political views, with regard to Fidel Castro, 
and for those reasons I oppose this.
    Chairman Gilman. Thank you, Ms. Lee.
    Are there any other Members seeking recognition?
    Mr. Burton. Mr. Chairman.
    Chairman Gilman. If not, the gentleman from Indiana, Mr. 
Burton, is recognized.
    Mr. Burton. Mr. Chairman, I move that the Chairman be 
requested to seek consideration of the pending bill on the 
suspension calendar.
    Chairman Gilman. The question is on the motion of the 
gentleman from Indiana.
    All those in favor of the motion signify by saying aye.
    Those opposed say no.
    The ayes have it.
    The motion is agreed to.
    Further proceedings on this measure are postponed.
    We will reconvene following the conclusion of the measures 
before the Congress right now.
    Thank you. The Committee is recessed.
    [Recess.]
    Chairman Gilman. The Committee will come to order.
    We will now consider H. Con. Res. 187, relating to the 
airplane engine regulations of the European Union.
    The Chair lays the resolution before the Committee.
    The clerk will report the title of the resolution.
    Ms. Rush. House Concurrent Resolution 187, a concurrent 
resolution expressing the sense of Congress regarding the 
European Council noise rule affecting hushkitted and reengined 
aircraft.
    [The information referred to appears in the appendix.]
    Chairman Gilman. Without objection the preamble and 
operative language of the resolution will be read in that order 
for amendment.
    The clerk will read.
    Ms. Rush. Whereas for more than 50 years the International 
Civil Aviation Organization in this resolution refers----
    Chairman Gilman. Without objection, the resolution is 
considered as having been read, and it is now open for 
amendment at any point.
    This resolution is in the original jurisdiction of the full 
Committee. We are an additional Committee on this resolution, 
and it is primarily in the jurisdiction of the Committee on 
Transportation and Infrastructure. But both Mr. Gejdenson and I 
have cosponsored it.
    I recognize myself briefly on the resolution. Then I 
believe Mr. Gejdenson, who has been very active and 
constructive on this very important issue, will have something 
to say.
    The European Union has passed very regrettable legislation 
that is supposed to help control noise around their airports, 
but the European legislation will, in fact, let noisy European 
airplanes fly, and will ban quieter American airplanes.
    It imposes a design standard rather than a performance 
standard that, oddly enough, favors European interests. 
Europeans often accuse our Nation of unilateralism, but this 
regulation strikes at the heart of an international agreement 
on whether aircraft can fly internationally or not. European 
legislation will come into full effect this spring if nothing 
is done.
    There are negotiations now under way to achieve a 
settlement acceptable to both sides. But while the European 
legislation will come into effect automatically, we have no 
ready response. One response that has passed the House is a 
bill which would result in a ban on a Concorde landing in the 
United States if this law takes effect. Banning the Concorde 
would result in a lowering by about 20 percent of the airport 
noise in New York, by the way.
    This legislation asks the Administration to bring a case 
under the International Civil Aviation Organization, ICAO, and 
determine what our rights are. I think that this procedure, 
which will take some time, is a good counterweight to the 
impending European legislation.
    In closing, I say that we hope that a solution that permits 
an improvement in noise control standards over time by 
international consensus can be reached, and it may be that 
bringing this ICAO case will help put some pressure on the 
Europeans to come to a reasonable solution. Therefore, we hope 
that Members will support this resolution.
    I recognize Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman.
    Mr. Chairman, I want to commend you for your fine work on 
this issue, and your leadership on it; also thank Mr. Shuster 
and Mr. Oberstar for the work they have done. We have what is 
clearly an outrageous attempt by the Europeans not to use 
decibel levels to deal with the noise issue, but really to show 
their hand by looking at the design of engines and trying to 
use the design not to deal with noise, but to deal a 
disadvantage to American jet engine manufacturers.
    If the United States gives in to the Europeans in this 
instance we will see, sector by sector, American products 
blocked under the ruse of either safety or noise regulations. 
What is clear, these regulations have nothing to do with noise 
and everything to do with giving European jet engine 
manufacturers a competitive advantage.
    This resolution is a very measured response. It simply 
suggests the EU and the United States deal with this at the 
appropriate international agency. But I can tell you that if we 
fail to resolve this fairly, the Europeans will see from this 
Congress, and this Member of Congress in particular, a response 
that will be equal to theirs. This is an outrageous act. For 
whatever reason, by whatever course it has occurred, it clearly 
has nothing to do with noise, it has everything to do with 
trying to disadvantage Americans in international competition. 
It will not serve the Europeans to take this course.
    Mr. Chairman, again I want to commend you for your work on 
this and hope you would go to your leadership and ask to have 
this put on the Monday suspension calendar.
    Chairman Gilman. Thank you, Mr. Gejdenson.
    Are there any other Members seeking recognition? Ms. 
Danner.
    Ms. Danner. Thank you, Mr. Chairman.
    I would just like to associate myself with the remarks that 
have been made. As a Member of the Aviation Subcommittee, I 
have sat in on hearings with regard to this issue, and several 
things that I might bring to the body's attention they may not 
be aware of. It was only when we got into this hushkit issue 
that I learned that we had been very generous with the 
Europeans, and that we allowed the Concorde to come to this 
country for many, many years when they exceeded the noise 
levels.
    So we have been very understanding of them. The loss to our 
aviation industry is enormous, as has been cited, and it isn't 
just a question of landing rights at this time, but the 
question of the eventual sale of these aircraft to perhaps 
smaller countries, and the countries that are smaller than ours 
that might be tempted to buy our aircraft are not going to do 
so, because they know they wouldn't be able to land them. So we 
preclude the landing of these planes.
    It has an effect that is ongoing. So I very much agree with 
this resolution and would also agree that I hope we can bring 
it up in a very timely fashion.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Ms. Danner.
    Dr. Cooksey.
    Mr. Cooksey. Thank you, Mr. Chairman.
    I, too, would commend the Chairman for this resolution, and 
would like to point out that this EU regulation basically is 
targeted at American aircraft, and it is very obvious and it is 
very blatant. This is surprising that the EU or the EC would do 
this at a time when we are supposed to--that we are in a period 
of globalization, that we are in the Information Age, and they 
would use this parochial tactic to basically preclude our 
aircraft, and our aircraft engines, from being in the skies 
over Europe.
    So I think it is indeed an outrage, as my friend Mr. 
Gejdenson says. I feel that it not only necessitates, it 
demands strong action on the part of this country to stand up 
and take a strong position and make it clear to the people in 
Europe that they cannot do this at this time, at this point in 
history, if they really want to be part of the global markets.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Dr. Cooksey.
    Are there any other Members seeking recognition? If not--
Mr. Meeks.
    Mr. Meeks. Yes. I just want to thank you, Mr. Chairman, for 
this bill. Coming from the 6th Congressional District in 
Queens, where JFK is and we have tolerated for years the 
Concorde--that is where it lands--and its excessive noise, for 
the European Union to now try to discriminate against American 
companies, I think we need to come down hard and not allow 
this.
    I agree with the comments of my colleague earlier that we 
should not tolerate this discriminatory practice on behalf of 
the European Union, and I just want to thank the Chair for 
bringing this forward.
    Chairman Gilman. Thank you, Mr. Meeks.
    If there are no other Members seeking recognition, I now 
recognize the gentleman from Nebraska, Mr. Bereuter.
    Mr. Bereuter. Mr. Chairman, I move that the Chairman be 
requested to seek consideration of the pending resolution on 
the suspension calendar.
    Chairman Gilman. Thank you, Mr. Bereuter.
    The question is on the motion of the gentleman from 
Nebraska.
    All those in favor of the motion signify by saying aye.
    Those opposed say no.
    The ayes have it.
    The motion is agreed to.
    Further proceedings on this measure are postponed.
    We now have before us H.J. Res. 65, relating to the Battle 
of the Bulge.
    The Chair lays the bill before the Committee.
    The clerk will report the title of the joint resolution.
    Ms. Rush. H.J. Res. 65, a joint resolution commending the 
World War II veterans who fought in the Battle of the Bulge and 
for other purposes.
    [The information referred to appears in the appendix.]
    Chairman Gilman. Without objection, the preamble and 
operative language will be read in that order for amendment. 
The clerk will read the bill for amendment.
    Mr. Smith. Mr. Chairman, I have an amendment in the nature 
of a substitute.
    Chairman Gilman. First allow us to submit the measure, then 
we will take up the amendment.
    Mr. Smith. I am sorry.
    Ms. Rush. Whereas the Battle of the Bulge was a major 
German offensive in the----
    Chairman Gilman. Without objection, the resolution is 
considered as having been read. It is open to amendment at any 
point.
    I will recognize Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman. Mr. Chairman, 
I have an amendment in the nature of a substitute.
    Chairman Gilman. The clerk will distribute the amendment.
    The clerk will read the amendment.
    Ms. Rush. Amendment in the nature of a substitute by Mr. 
Smith. Amend the preamble to read as follows----
    [The information referred to appears in the appendix.]
    Mr. Smith. I ask unanimous consent that the amendment be 
considered as read.
    Chairman Gilman. Without objection, the amendment is 
considered as having been read.
    I recognize Mr. Smith on his amendment.
    Mr. Smith. Thank you very much, Mr. Chairman.
    It will only take a few moments of my colleagues' time. 
This amendment in the nature of a substitute to H.J. Res 65, 
which I introduced in August along with a number of cosponsors, 
including yourself, Mr. Bereuter, Lane Evans, Bob Stump, and 
many others, commends the World War II veterans who bravely 
fought in the Battle of the Bulge in both Belgium and 
Luxembourg.
    This resolution reaffirms our Nation's deep gratitude to 
the veterans of this crucial military engagement on its 55th 
anniversary, and commemorates the sacrifices and services of 
our World War II vets, those slain, those who survived, and all 
of their families.
    I would just point out, parenthetically, this would be the 
first time that Congress has gone on the record in recognizing 
those particular survivors and those who died at that 
particular battle.
    Mr. Chairman, from mid-December 1944 through January 25th 
of 1945, in an engagement that was three times as large as the 
battle of Gettysburg, 600,000 American troops fought to repel a 
massive Nazi offensive, which included on the Nazis' part the 
element of surprise; they almost succeeded.
    Our troops, assisted by about 55,000 British soldiers, 
resisted 1,000 Panzer guns and artillery fire, and even 
frostbite from the bitter cold conditions.
    The ordeal, or the campaign, was often called the great 
gamble by Hitler. He thought a massive offensive might split 
the American, the Allied lines, and might actually change the 
fortunes of the war, but the price of victory for the Allies 
was incredible.
    There were 81,000 American casualties, including 19,000 
KIA, killed in action. Mr. Chairman, without their sacrifice 
and bravery, stopping Hitler's war machine would have been much 
more of a difficult task and perhaps would have resulted in 
even more lives lost on both sides.
    I would just point out, Mr. Chairman, that one American 
hero--and there were a number of men who got the Congressional 
Medal of Honor, 17 in all--but one, Bud Thorn, was awarded that 
great medal posthumously for his bravery at the Battle of the 
Bulge. His sister came to me recently and asked if I would do 
this resolution to remember her brother, but also the many 
others who died, and also to commemorate and remember those who 
have lived.
    So, I just want to say to my colleagues, I hope we will all 
support this. They are meeting in convention, those survivors 
of the Battle of the Bulge, this weekend, and hopefully we can 
be on the Floor very shortly with this. There are a number of 
remembrances planned in the coming weeks and months in Belgium, 
in Luxembourg, and in the United States. So I think it is very 
fitting that we go on record applauding their heroism and the 
great feat that they accomplished many years ago.
    I yield back the balance.
    Chairman Gilman. Thank you, Mr. Smith, and thank you for 
sponsoring this resolution.
    Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman. I just commend Mr. 
Smith and others who sponsored this legislation. In the Ambrose 
book, I think he points out how the individual American 
soldier, in small groups and by themselves, pulled themselves 
together in small groups and individuals to really hold the 
line. I think without any question, in the final analysis, we 
would have triumphed, but it could have taken much, much 
longer, at the cost of many more lives.
    I commend the gentleman for his action.
    Chairman Gilman. Thank you, Mr. Gejdenson.
    This joint resolution commends our American servicemen who 
fought in one of the most decisive battles of World War II, the 
Battle of the Bulge. In December 1944, just prior to the 
holidays, Hitler's generals, in a desperate gambit, launched an 
offensive in the Ardennes Forest intended to split the lines of 
U.S. forces.
    The Germans sought to break out of their containment and 
regain the offensive. Aided by a combination of the element of 
surprise and bad weather, which prevented our forces receiving 
air support, the Germans were nearly successful. The German 
commanders, however, made a crucial mistake in underestimating 
the resolve of our American forces whom they faced in this 
monumental battle.
    From the dog-faced privates to our top generals, our troops 
were undaunted by the savageness of the German assault or by 
the forces of nature, which seemed to be arrayed against them. 
The spirit of our troops was best encapsulated in a famous 
incident when the German general demanded the surrender of U.S. 
troops. Brigadier General Anthony McAuliffe, of the 101st 
Airborne Division, replied with the epithet ``nuts.''
    I commend the gentleman from New Jersey, Chairman of our 
Subcommittee on International Operations and Human Rights, for 
bringing this measure before our Committee as we near the 50th 
anniversary of the Battle of the Bulge, and ask our Members to 
unanimously report it to the House.
    Is there any other Member seeking recognition? If there is 
no other Member----
    Mr. Bereuter. Mr. Chairman.
    Chairman Gilman. Mr. Bereuter.
    Mr. Bereuter. I would yield such time to the gentleman from 
New Jersey as he might seek.
    Mr. Smith. Thank you very much.
    Chairman Gilman. The gentleman from New Jersey.
    Mr. Smith. Congresswoman Danner just made a very good point 
in the resolution where we say ``American forces overcame great 
odds.'' Whereas the success of American forces, while the 
American forces were the overwhelming bulk of the fighting 
force in that campaign, the British forces were also very 
important.
    I would ask unanimous consent that wherever we have 
American troops, where appropriate, we also put ``and British 
forces'' as well.
    Chairman Gilman. Without objection, the amendment is agreed 
to.
    Mr. Smith. I want to thank the gentlelady from Missouri for 
pointing that out.
    Mr. Bereuter. I yield back.
    Chairman Gilman. Thank you, Mr. Bereuter.
    Are there any other Members seeking recognition?
    If not, the question is now on the amendment in the nature 
of a substitute offered by Mr. Smith.
    All those in favor signify by saying aye.
    All those opposed to the amendment say no.
    The amendment is agreed to.
    The gentleman from Nebraska, Mr. Bereuter, is recognized to 
offer a motion.
    Mr. Bereuter. Mr. Chairman, I move that the Chairman be 
requested to seek consideration of the pending resolution as 
amended on the suspension calendar.
    Chairman Gilman. The question is now on the motion of the 
gentleman from Nebraska. As many as in favor of the motion 
signify by saying aye.
    As many as are opposed say no.
    The ayes have it, the motion is agreed to.
    Further proceedings on this measure are postponed.
    We will now consider H. Res 297, expressing sympathy for 
the victims of the devastation that struck Taiwan on September 
21st, 1999.
    The Chair lays a resolution before the Committee.
    The clerk will report the title of the resolution.
    Ms. Rush. H. Res 297, a resolution expressing sympathy for 
the victims of the devastating earthquake that struck Taiwan on 
September 21st, 1999.
    [The information referred to appears in the appendix.]
    Chairman Gilman. This resolution has not been referred to 
the Subcommittee as of yet.
    Without objection, the clerk will read the preamble and 
operative language of the resolution in that order for 
amendment.
    The clerk will read.
    Ms. Rush. Whereas on the morning of September 21st, 1999, a 
devastating and deadly earthquake shook the country.
    Chairman Gilman. Without objection, the resolution is 
considered as having been read, and it is open to amendment at 
any point.
    I now recognize the sponsor of the resolution, the 
distinguished Chairman of our Subcommittee on Asia and the 
Pacific, the gentleman from Nebraska, Mr. Bereuter, to 
introduce the resolution.
    Mr. Bereuter. Thank you, Chairman Gilman. I thank you for 
agreeing to place H.R. Res 297 on the markup today, and thanks 
to Ranking Democrat Gejdenson and the Asia and the Pacific 
Subcommittee Ranking Democrat Lantos, all three of you who have 
cosponsored the bill. The earthquake that occurred this week in 
Taiwan has literally decimated major parts of that island. It 
has become an all too familiar site, and the casualties are 
thousands.
    There are hundreds of thousands homeless, buildings 
collapsed, roads destroyed, village destroying mud slides, dams 
cracked and in danger of failing. Taiwan will no doubt 
persevere. The Taiwanese are strong, and they are courageous. 
They have faced adversity before, but it is only appropriate 
that we comment on this tragic natural catastrophe and indicate 
our assistance, sympathy, and concern.
    H. Res. 297 extends our deepest sympathy to the people of 
Taiwan. It notes with approval the assistance being offered 
under the auspices of the U.S. Agency for International 
Development. It also notes with approval the willingness of 
other nations to come to the assistance of Taiwan in their time 
of need. Among those offering assistance include Japan, 
Singapore, the People's Republic of China, and Turkey, which 
recently suffered its own similar catastrophe.
    Mr. Chairman, I have an amendment at the desk that I would 
like to offer at this point.
    Chairman Gilman. The clerk will distribute the Bereuter 
amendment.
    The clerk will read the amendment.
    Ms. Rush. Amendment by Mr. Bereuter, on page 1----
    [The information referred to appears in the appendix.]
    Mr. Bereuter. Mr. Chairman, I ask unanimous consent that 
the amendment be considered as read.
    Chairman Gilman. Without objection, the amendment is 
considered as having been read.
    Mr. Bereuter is recognized on his amendment.
    Mr. Bereuter. Thank you, Mr. Chairman. The amendment simply 
updates events in Taiwan. Regrettably it increases the casualty 
list--now more than 2,000 dead and more than 7,800 injured. 
Regrettably, we have to leave it sort of open ended language 
until the rescue activities are completed.
    I also thank Mrs. Ros-Lehtinen for alerting us to the fact 
that elements of the Miami Dade County Fire and Rescue Team 
have been dispatched in Taiwan, and we include the language 
``and others,'' since units other than those from Fairfax 
County and Miami Dade County are undoubtedly going to be 
involved.
    I ask for the adoption of the amendment.
    Chairman Gilman. Is there any objection to the adoption of 
the amendment?
    If no objection, all those in favor signify by saying aye.
    Opposed.
    The amendment is carried.
    I want to thank the distinguished Chairman of the Asia and 
the Pacific Subcommittee, Mr. Bereuter, for responding so 
quickly to the tragic earthquake in Taiwan by drafting this 
resolution, which I am pleased to cosponsor, and I encourage my 
colleagues to join with us in expressing our sympathies to the 
people of Taiwan in their time of need.
    I personally want to express my deepest sadness about the 
devastating earthquake that struck Taiwan on the morning of 
September 21st, 1999. I want to convey to the citizens of 
Taiwan, who recently warmly hosted our congressional delegation 
during a visit to Taipei in August, our profoundest sympathies 
about the tragic loss of life and property.
    I am calling upon the Administration and other nations to 
do everything possible to assist Taiwan in its recovery from 
this unfortunate act of nature.
    Are there any other Members seeking recognition?
    If there are no other Members seeking recognition, I 
recognize the gentleman from Nebraska, Mr. Bereuter.
    Mr. Bereuter. Mr. Chairman, in addition to yourself, Mr. 
Gejdenson, Mr. Lantos, Mr. Royce, Mr. Hastings, Mr. 
Rohrabacher, Mr. Ackerman, Mr. Smith, Mr. Berman, Mr. Burton, 
Mr. Brown of Ohio, Mr. Faleomavaega, Mr. Payne, Mr. Hilliard, 
Mr. Wexler, Mr. Wynn and Mr. Gillmor are cosponsors and we 
welcome others who wish to bring their name to the attention of 
the staff.
    Mr. Chairman, I move that the Chairman be requested to seek 
consideration of the pending resolution, as amended, on the 
suspension calendar.
    Chairman Gilman. The question is now on the motion of the 
gentleman from Nebraska.
    All those in favor of the motion signify by saying aye.
    All those opposed say no.
    The ayes have it.
    The motion is agreed to.
    Further proceedings on this measure are postponed, and this 
concludes our business for today.
    The Committee stands adjourned. I thank our Members for 
coming back.
    [Whereupon, at 4:30 p.m., the Committee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                           September 23, 1999

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T3967.001
    
    [GRAPHIC] [TIFF OMITTED] T3967.002
    
    [GRAPHIC] [TIFF OMITTED] T3967.003
    
    [GRAPHIC] [TIFF OMITTED] T3967.004
    
    [GRAPHIC] [TIFF OMITTED] T3967.005
    
    [GRAPHIC] [TIFF OMITTED] T3967.006
    
    [GRAPHIC] [TIFF OMITTED] T3967.007
    
    [GRAPHIC] [TIFF OMITTED] T3967.008
    
    [GRAPHIC] [TIFF OMITTED] T3967.009
    
    [GRAPHIC] [TIFF OMITTED] T3967.010
    
    [GRAPHIC] [TIFF OMITTED] T3967.011
    
    [GRAPHIC] [TIFF OMITTED] T3967.012
    
    [GRAPHIC] [TIFF OMITTED] T3967.013
    
    [GRAPHIC] [TIFF OMITTED] T3967.014
    
    [GRAPHIC] [TIFF OMITTED] T3967.015
    
    [GRAPHIC] [TIFF OMITTED] T3967.016
    
    [GRAPHIC] [TIFF OMITTED] T3967.017
    
    [GRAPHIC] [TIFF OMITTED] T3967.018
    
    [GRAPHIC] [TIFF OMITTED] T3967.019
    
    [GRAPHIC] [TIFF OMITTED] T3967.020
    
    [GRAPHIC] [TIFF OMITTED] T3967.021
    
    [GRAPHIC] [TIFF OMITTED] T3967.022
    
    [GRAPHIC] [TIFF OMITTED] T3967.023
    
    [GRAPHIC] [TIFF OMITTED] T3967.024
    
    [GRAPHIC] [TIFF OMITTED] T3967.025
    
    [GRAPHIC] [TIFF OMITTED] T3967.026
    
    [GRAPHIC] [TIFF OMITTED] T3967.027
    
    [GRAPHIC] [TIFF OMITTED] T3967.028
    
    [GRAPHIC] [TIFF OMITTED] T3967.029
    
    [GRAPHIC] [TIFF OMITTED] T3967.030
    
    [GRAPHIC] [TIFF OMITTED] T3967.031
    
    [GRAPHIC] [TIFF OMITTED] T3967.032
    
    [GRAPHIC] [TIFF OMITTED] T3967.033
    
    [GRAPHIC] [TIFF OMITTED] T3967.034
    
    [GRAPHIC] [TIFF OMITTED] T3967.035
    
    [GRAPHIC] [TIFF OMITTED] T3967.036
    
    [GRAPHIC] [TIFF OMITTED] T3967.037
    

</pre></body></html>
